<html>
<title> - GOVERNANCE, DEMOCRACY, HUMAN RIGHTS, AND THE MILLENNIUM CHALLENGE CORPORATION IN AFRICA: THE FISCAL YEAR 2012 PROPOSED BUDGET</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                  GOVERNANCE, DEMOCRACY, HUMAN RIGHTS,
                AND THE MILLENNIUM CHALLENGE CORPORATION
            IN AFRICA: THE FISCAL YEAR 2012 PROPOSED BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2011

                               __________

                           Serial No. 112-58

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
66-291PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Johnnie Carson, Assistant Secretary of State, 
  Bureau of African Affairs, U.S. Department of State............     8
Ms. Sharon Cromer, Senior Deputy Assistant Administrator, Bureau 
  for Africa, U.S. Agency for International Development..........    16
Mr. Patrick Fine, Vice President for Compact Implementation, 
  Department of Compact Operations, Millennium Challenge 
  Corporation....................................................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Johnnie Carson: Prepared statement.................    12
Ms. Sharon Cromer: Prepared statement............................    18
Mr. Patrick Fine: Prepared statement.............................    26

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................    58
The Honorable Johnnie Carson: Material submitted for the record..    59

 
   GOVERNANCE, DEMOCRACY, HUMAN RIGHTS, AND THE MILLENNIUM CHALLENGE 
      CORPORATION IN AFRICA: THE FISCAL YEAR 2012 PROPOSED BUDGET

                              ----------                              


                         TUESDAY, MAY 10, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Good afternoon to everybody. Welcome. Thank you 
for being here, especially to our very distinguished witnesses.
    We are holding today's hearing for the purpose of examining 
the administration's proposed level of funding for governance, 
democracy, human rights, and the Millennium Challenge 
Corporation programs in Africa for the upcoming fiscal year and 
to determine our overall strategies for Africa programming as 
we move forward.
    A large percentage of U.S. assistance to Africa is for 
global health programs. Due to the size of the global health 
budget and the number of important issues specific to global 
health, this subcommittee will hold a separate hearing at a 
later date on the 2012 request for global health funding.
    As we are all aware, our Nation is in severe economic 
distress. Unemployment hovers around 9 percent, even as 
gasoline and food prices continue to rise. Our Nation is 
engaged in two wars. Meanwhile, our national deficit is 
measured in the trillions of dollars, $14.3 trillion as of this 
morning, and en route to $25.1 trillion by 2021, according to 
the Congressional Budget Office. It is for this reason that 
this House recently passed a plan to begin the process of 
significantly reducing our deficit.
    Recent surveys have shown that many Americans have the 
widespread impression that U.S. Government funding for foreign 
operations is much higher than it really is. In actuality, our 
spending for foreign assistance is less than 1 percent of our 
budget. It may seem like more because of the frequent, 
unanticipated emergencies to which we respond out of our 
national generosity of spirit.
    The administration's proposed global bilateral budget for 
2012 is $25.8 billion and the Africa allocation is $7.8 
billion, representing 29 percent of the overall bilateral aid 
request. This bilateral aid request includes funding allocated 
for economic support funds, development assistance, and State 
Department-administrated international security assistance. 
However, it does not include aid administered by agencies other 
than USAID and the State Department or multilateral aid. Africa 
represents 40 percent of the Development Assistance account, 10 
percent of the Economic Support Fund, and 4 percent of the 
State Department administered International Security Assistance 
budget.
    Over the past decade, American bilateral aid to sub-Saharan 
Africa grew from $1.1 billion in Fiscal Year 2002 to $8.8 
billion in 2010. The largest increases were due to significant 
growth in global health spending under the Bush administration 
and lesser but additional growth in development aid and some 
security programs.
    There will have to be some efficiencies made and certainly 
some genuine priorities in funding in our overall foreign 
assistance program. In this subcommittee, our concern is that 
African reductions in funding are not so significant that they 
prevent us from conducting programs that have saved lives and 
provided the most basic necessities for millions of African 
citizens and supported our national security efforts in the 
region as well.
    It is not because of the generosity of spirit alone that we 
conduct foreign assistance programs in Africa, although that 
would, in and of itself, justify our abiding commitment. The 
United States, however, has genuinely significant national 
interests on the continent as well.
    In the first quarter of this year, we watched unrest in 
North Africa cause oil prices to rise steadily. We face the 
prospect of $5 for a gallon of gasoline not only when oil 
supplies are interrupted but also on the fear of potential 
interruption. The U.S. gets nearly one-fifth of our oil from 
West Africa; and with an increasing number of oil fields in 
Uganda, Ghana, Sierra Leone, Sao Tome and Principe, and other 
locations on the continent, Africa has become too important a 
petroleum source to merely hope that supplies will not be 
interrupted.
    Energy security has long been a concern of the U.S. 
Government because of the importance of oil to our and much of 
the world's way of life. Failed states provide safe havens for 
terrorists and now pirates, who threaten commerce and lives. 
Somalia and Sudan have long been well known as sites for al-
Qaeda and other terrorist organizations to train and harbor 
their minions, as well as modern-day pirates operating on the 
seas.
    East Africa is home to Islamic fundamentalists, some of 
whom perpetrated attacks on U.S. Embassies in Kenya and 
Tanzania in 1998 that claimed American lives and many more 
African lives.
    I would note parenthetically that I chaired the hearings in 
this room in 1998. We heard from Admiral Crowe and Assistant 
Secretary Carpenter from Diplomatic Security about how ill-
prepared we were and how many at our Embassies had thought they 
could never strike here. Instead, they did; and thousands of 
people were killed and many more were wounded.
    I would also note parenthetically that, out of that, we 
wrote what was known as the Embassy Security Act, the Meg 
Donovan and Admiral Nance Foreign Relations Act of 2000--and I 
was a sponsor of that--that provided authorization for about $6 
billion to beef up our Embassies. But the lesson was learned in 
Tanzania at Dar Salem and in Nairobi when our Embassies were so 
brutally hit by the terrorists.
    And as we watch government after government fall suddenly 
or crumple under the pressure of popular uprisings, there is 
concern that Islamic militants could seize power and create 
enemy states where allies now exist. Failed states or even weak 
states could become bases for international criminal cartels. 
International drug traffickers are increasingly using African 
countries as transshipment points. In fact, since 2003, West 
Africa has been the source of 99 percent of all drugs seized in 
Africa, and those seizures have increased by a factor of five 
during that period.
    The United Nations has dubbed Guinea-Bissau, one of the 
world's poorest countries, as Africa's first narco state. Now 
Mozambique, considered a rising economy on the continent, has 
become a drug transshipment point as well. The war on drugs has 
now shifted from Central and South America and Asia, and that 
fact cannot be ignored.
    The very air we breathe is partially created by the world's 
rain forests. While the role of rain forests and oxygen 
generation has been, at times, exaggerated, they are 
realistically estimated to be responsible for the production of 
some 20 percent of Earth's oxygen. Cutting down the rain forest 
in Africa is not merely a local problem for African countries, 
it is a global issue for us all. Certainly, we know storms in 
West Africa contribute to hurricanes in our hemisphere, so 
mitigating the negative impact of climate change in Africa is 
our problem, too.
    The rise of food prices in recent years is a global 
problem. Scarcity of food produced in Africa means the 
worldwide shortage also causes our food prices to rise. Even if 
we produce enough for ourselves, the market for food is not 
limited to one country alone. The demand for staples such as 
rice, wheat, and corn affects everyone, and the lack of money 
to buy such agricultural products in Africa means African 
farmers have their market opportunities limited.
    A point has been made that nearly 80 percent of the 
strategic minerals that the United States needs originate in 
Africa. An estimated 97 percent of the world's platinum is from 
Africa, as well as 90 percent of the cobalt, 80 percent of the 
chromium, 40 percent of the manganese, half of the world's gold 
reserves, and as much as one-third of all uranium. In recent 
years, the mineral coltan, largely coming from Africa, has 
enabled the development of computers, cell phones, and other 
electronic devices. Africans should enjoy more of the largesse 
of those sales.
    The world would be hard pressed to construct jet aircraft, 
automobiles, catalytic converters, or computers, cell phones 
and iPods without the minerals found in Africa and, in some 
cases, almost nowhere else.
    Modern life worldwide depends on a functional African 
continent, and our foreign assistance program must be aimed 
first and foremost at meeting basic humanitarian needs. We must 
help the Africans to help themselves, but in so doing we also 
help ourselves.
    Our testimony this afternoon will be presented by three 
witnesses: Assistant Secretary of State for African Affairs, 
Johnnie Carson; Senior Deputy Assistant Administrator for the 
U.S. Agency for International Development's Africa Bureau, 
Sharon Cromer; and the Millennium Challenge Corporation's Vice 
President for Compact Implementation, Patrick Fine.
    Before we hear from our distinguished witnesses, I would 
like to yield to my good friend and colleague, Don Payne, for 
any opening comments that he might have.
    Mr. Payne. Thank you very much, Mr. Chairman; and thank you 
for convening this hearing and for your continued interest and 
attention to Africa.
    Let me welcome the guests who will be testifying, all of 
which have distinguished curriculum vitae.
    The objective of today's hearing is to review the 
President's budget request for Africa, including bilateral and 
regional priorities for foreign assistance. I look forward to 
learning about and reviewing the administration's program and 
resource priorities in sub-Saharan Africa and North Africa as 
well as the basis for projections for these requested funds.
    The total bilateral foreign assistance request for Africa 
for Fiscal Year 2012 is $7.8 billion, nearly three-quarters of 
which is dedicated to global health, which, as the chairman 
said, will be covered in a separate budget hearing later this 
month. Today, we will cover major priorities, including Feed 
the Future, humanitarian assistance, democracy and governance 
programs, security assistance, and economic development 
programs.
    While we discuss the budget for Africa and are keenly aware 
of the effects the economic downturn has had on our own 
country--and we are all keenly aware of that as we proceed now 
in the Congress--we know that this downturn also has affected 
the rest of the world. The recent economic turmoil makes our 
efforts to strengthen African economies, trade, access to 
emerging markets, together with investment in good governance 
and democracy, even more important.
    We know that the world is deeply interconnected, and 
instability in one country will affect the security and well-
being of those around the world. The recent revolutions in 
North Africa and the Middle East remind us that food security 
and good governance, for example, are not only humanitarian 
issues but affect the stability of an entire region. This is a 
lean budget for lean times, to use Secretary Clinton's word, 
but we must make sure that security, democracy, and good 
governance remains a priority.
    According to U.N. population projections, Africa is 
projected to undergo the greatest population increase of any 
world region in the coming decade. People across the continent 
are demanding governments that serve them and provide for 
better access to world economies in order to provide growth and 
opportunity. In this context, we must be prepared for the 
destabilizing and complex interaction between population 
changes, rising food costs, and climate change.
    I am heartened to see that the President's Fiscal Year 2012 
budget provides for increased investment in both agriculture 
and climate change; and I look forward to your accounts there 
on the panel of how you intend to use the requested funds to 
help strengthen the continent's resilience to climate disaster, 
as well as the slower, equally pernicious challenges of soil 
erosion and changing weather patterns.
    I also look forward to hearing how the budget will be used 
to strengthen Africa's agriculture production as well as 
regional markets and infrastructure to ensure that sufficient 
food reaches the local population.
    While Africa faces great challenges on the continent, we 
also find the greatest potential for growth. In countries like 
Tanzania, only 22 percent of arable land is farmed because of 
inefficiencies in the market. I am interested in hearing how 
the Feed the Future initiative will address these issues.
    In addition to these priorities, we must continue to work 
to stabilize countries that have recently underwent serious 
political and humanitarian crises and to prevent further 
crises.
    In this tough economic climate, we must remember that 
investing in conflict prevention will serve us in the long 
term. As we all know, a stitch in time saves nine, as my 
grandmother used to say. By defraying humanitarian costs, 
military costs and lost economic development will, of course, 
increase.
    It is estimated that every dollar invested in preventing 
conflict from turning deadly saves us from spending $60 in 
crisis response after violence erupts. We must remain vigilant 
about recognizing the percolating signs of political unrest and 
nipping them in the bud before a full-scale conflict erupts. We 
must strengthen our investment in good governance, democracy, 
and conflict prevention.
    I look forward to hearing from you how this budget 
increases our Government's ability to help prevent and mitigate 
crises, specifically the important role of the Complex Crisis 
Fund, or the CCF.
    The recent uprisings in Egypt and Tunisia, where 
professional militaries were able to play a pacifying role, 
reinforces the importance of security sector strengthening and 
rule of law. I am pleased to see the request for a new account, 
the Global Security Contingency Fund, to enhance foreign 
militaries and provide justice sectors and stabilization 
assistance, and I am curious to learn how that account will be 
managed operationally.
    Human rights activists have long raised concerns that some 
African governments receiving U.S. security and 
counterterrorism assistance are involved in human rights 
abuses. I want to know what steps we are planning to take to 
ensure that U.S. security assistance programs do not abet human 
rights abuses on the continent.
    On the same note, I am surprised to see that countries such 
as Niger and Guinea, which are undergoing fragile transitions 
from military to civilian rule governments, face steep aid 
cuts. I am eager to hear how the administration's choice of 13 
aid priority recipient countries match such priorities as 
preventing, mitigating, and resolving armed conflict.
    And, finally, we must continue to focus on encouraging good 
governance, sustainable investments, and strong partnerships 
with African countries. The Millennium Challenge Corporation, 
the MCC, created through bipartisan consensus under President 
Bush's leadership in an effort to introduce a new approach to 
foreign economic assistance, works toward all of these goals. 
It creates powerful incentives for countries to uphold 
democratic and free market principles and to invest responsibly 
in their citizens. By upholding standardized principles of 
effectiveness, the MCC ensures that U.S. tax dollars are used 
efficiently and that partner countries advance toward economic 
growth.
    The MCC's compact investments compel countries to make 
sustainable and substantial reforms. For example, due to the 
incentive of the compact agreement, Ghana passed landmark 
legislation that will improve access to improved seed 
varieties, certified fertilizers and pest-free plants, and 
ensure that it is better equipped to provide long-term food 
security for the country.
    The MCC also encourages reform beyond partnership 
countries. It is clear that eligible criteria and focus on 
policy performance creates powerful incentives for reform. 
Mozambique's government, due to its continued focus on MCC 
eligibility, developed an action plan to expand access to 
childhood vaccinations, increase primary school attendance for 
girls, and strengthen natural resource management practices.
    Mr. Fine, I look forward to hearing how the MCC plans to 
expand on its good track record and how it will work to ensure 
that GDP growth in Africa will mitigate poverty levels. I also 
look forward to hearing how the MCC proposes to address 
democracy, governance, and human rights concerns that emerge in 
partner countries after the compacts are signed.
    With economic pressure underlying our Fiscal Year 2012 
budget debate, I remain a firm advocate for continued 
investment in good governance, peace building, humanitarian 
assistance, food security, and economic development in Africa. 
I am deeply concerned that many of the calls for cuts in 
international spending are based on a belief that the United 
States, as the chairman mentioned, spends far more than it 
actually does on foreign aid. A poll conducted by World Public 
Opinion and managed by the University of Maryland shows that 
Americans vastly overestimate the percentage of the Federal 
budget allocated to foreign aid, as has been mentioned before, 
with a median estimate of 25 percent of what the average 
American feels we spend on foreign aid, according to the World 
Public Opinion.
    When asked how much they think we should appropriate, 
percent-wise the median response is 10 percent, a response that 
has remained unchanged for the past 15 years, straight line. In 
reality, of course, as has already been mentioned by the 
chairman, our foreign assistance account is less than 1 percent 
of the Federal budget. The budget for Africa represents a mere 
fraction of that investment, which yields great returns.
    The President's Fiscal Year 2012 foreign affairs budget 
request for Africa reflects tough choices and significant 
savings in difficult economic times. In an interconnected world 
characterized by grave turmoil and uncertainty, this budget 
request represents the resources needed to protect Americans 
and America's national security interests in Africa. A stable, 
well-governed, and developed Africa will be a strong partner to 
the United States in trade, in business, and in national 
security.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Payne.
    Ms. Buerkle.
    Ms. Buerkle. Thank you, Mr. Chairman.
    I just thank you for holding this hearing today. Thank you 
for the ranking member's comments. And I just look forward to 
hearing the testimony of our three witnesses here today, and I 
thank you for being here.
    I yield back. Thank you, sir.
    Mr. Smith. Ms. Bass.
    Ms. Bass. Thank you, Chairman Smith and Ranking Member 
Payne. I also want to thank our witnesses for taking the time 
out for your testimony today.
    As a member of the Budget Committee, I do believe that 
tough fiscal times call for tough fiscal decisions that stretch 
us to critically examine our values. Having said that, I do 
believe that our foreign assistance in Africa delivers 
lifesaving humanitarian assistance, provides crucial health 
interventions, and creates partnerships with Africans to 
improve democracy, governance, and education outcomes.
    The international affairs budget is critical to the U.S. 
economic engagement with the world, especially at a time when 
there is wide recognition of the need to boost U.S. exports to 
create jobs. Nearly half of American exports now go to the 
developing world, and the U.S. must continue to invest 
overseas.
    Investment in Africa is a mutual partnership. In the last 
10 years, smart American investment in Africa has shown marked 
returns. The United States has played an instrumental role in 
ending conflicts as well as decreasing the instances of death 
from malaria and other preventable diseases. This relationship 
has created jobs for American firms and workers who have 
benefited from marked growth in Africa. While Africa's future 
must be driven by Africans, the United States should play a 
major role by investing in our African partners to ensure 
economic and democratic outcomes that lead to worldwide 
stability and prosperity.
    Thank you very much. I yield back.
    Mr. Smith. Thank you very much.
    We now have the privilege of welcoming our three very 
distinguished witnesses to the subcommittee, beginning with 
Ambassador Johnnie Carson, who was sworn in as Assistant 
Secretary of State for the Bureau of African Affairs on May 7, 
2009. Prior to this, he was the National Intelligence Officer 
for Africa at the National Intelligence Council after serving 
as the Senior Vice President of the National Defense University 
here in Washington from 2003 to 2006.
    Ambassador Carson's 37-year Foreign Service career includes 
ambassadorships to Kenya, 1999 to 2003; Zimbabwe from 1995 to 
1997; and Uganda from 1991 to 1994; and Principal Deputy 
Assistant Secretary for the Bureau of African Affairs from 1997 
to 1999. Earlier in his career, he served as staff director for 
this committee, from 1979 to 1982.
    Ambassador Carson is the recipient of several Superior 
Honor Awards from the Department of State and a Meritorious 
Service Award from the Secretary of State, Madeleine Albright. 
The Centers for Disease Control presented Ambassador Carson its 
highest award, ``Champion of Prevention Award,'' for his 
leadership in directing the U.S. Government's HIV/AIDS 
prevention efforts in Kenya.
    Sharon Cromer is currently the Senior Deputy Assistant 
Administrator in the Africa Bureau at USAID, a position she has 
held since May 2010. She is a senior USAID Foreign Service 
officer, with more than 20 years of experience in the 
international humanity and development assistance area. From 
1986 to 1997, she was assigned to missions in Pakistan, Cote 
d'Ivoire, and Senegal. Following these consecutive tours, she 
assumed the role of Deputy Director of USAID's mission in 
Indonesia. Ms. Cromer subsequently was USAID's Mission Director 
in Ghana and later Mission Director in Nigeria.
    Upon her return to Washington in 2009, Ms. Cromer served as 
Assistant Administrator for the Bureau for Democracy Conflict 
and Humanitarian Assistance on a temporary basis before 
assuming the position of Deputy Assistant Administrator in the 
Bureau of Management.
    Patrick Fine is Vice President for Compact Implementation 
for the Millennium Challenge Corporation. Previously, Mr. Fine 
served as a senior vice president at the Academy for 
Educational Development and director of the Global Education 
Center, where he oversaw education development programs in 
countries in Africa, Latin America, and in Asia.
    Prior to working at AED, Mr. Fine served at USAID as the 
Senior Deputy Assistant Administrator in the African Bureau and 
a member of the Senior Foreign Service for the United States. 
Mr. Fine served as USAID Mission Director in Afghanistan in 
2004 to 2005, where he oversaw rapid expansion of U.S. 
assistance for reconstruction and development. His areas of 
expertise include international education, private sector and 
livelihood development, development finance, donor 
coordination, decentralization, community development, and 
fostering public/private partnerships.
    A very fine panel of extraordinary men and women; and I 
would now like to turn the time to you, Ambassador Carson, for 
such time as you would consume.

STATEMENT OF THE HONORABLE JOHNNIE CARSON, ASSISTANT SECRETARY 
 OF STATE, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Carson. Chairman Smith, Ranking Member Payne, and other 
members of the committee, I would like to thank all of you for 
inviting me to testify today on the President's Fiscal Year 
2012 budget request for sub-Saharan Africa.
    As this is my first appearance before the subcommittee 
since the 112th Congress began, I would like to express my very 
deep and sincere appreciation to Chairman Smith and Congressman 
Payne in particular for their past support of the African 
Affairs Bureau and for their many years of dedicated service 
and leadership of this subcommittee.
    The President's 2012 request for Africa reflects our core 
U.S. priorities and interests in the continent. I would like to 
highlight those priorities and some of the major policy 
challenges and opportunities that we face in Africa today.
    We remain committed to five overarching policy priorities: 
Strengthening democratic institutions and the rule of law; 
encouraging long-term development and growth, including food 
security; enhancing access to quality health care and 
education; assisting in the prevention, mitigation, and 
resolution of conflicts; and working with African nations and 
leaders to address transnational challenges, including 
terrorism, maritime security, climate change, narcotrafficking, 
and trafficking in persons.
    The Fiscal Year 2012 request of $7.8 billion represents a 
10 percent overall increase from the Fiscal Year 2010 enacted 
total of $7 billion. This increase is due in large measure to 
increases requested for each of the President's special 
initiatives. The request for global climate change has 
increased by 141 percent, Feed the Future by 20 percent, and 
global health by 12.6 percent. Our requests for discretionary 
funds to support non-initiative programs is $1.8 billion. They 
include programs focused on enhancing democracy and governance, 
economic growth, conflict resolution, and transnational issues.
    The United States has many challenges and commitments 
around the globe, but it is important for us not to lose sight 
of our growing national interests in sub-Saharan Africa. Sub-
Saharan Africa is a region where the United States has 
benefited from longstanding partnerships and friendships and 
enjoys some of the highest approval ratings in the world. The 
ties between Americans and Africans are deep and historic. With 
few exceptions, Africa is not a place where we see anti-
American demonstrations and rhetoric. That is indicative of the 
prevailing appreciation for our country's longstanding 
commitment to democracy and human rights and for our steadfast 
support in addressing Africa's many challenges and problems.
    The spread of democracy in Africa over the past two decades 
and the vibrancy of pro-democracy activism across the continent 
is further evidence that most Africans share our fundamental 
political values. In the international arena, we might not see 
eye to eye with Africans on every issue, but, overall, most 
governments there have been cooperative as we deal with a 
variety of global challenges.
    Our economic interests in Africa are clear and compelling. 
Approximately 14 percent of U.S. oil imports come from that 
region, making it a strategic part of our energy security 
portfolio. Imports from Nigeria alone are about 9 percent of 
our total oil imports and almost the same volume as those from 
Saudi Arabia.
    With promising exploration and development in a number of 
countries, sub-Saharan Africa's significance for global oil and 
gas will only increase in the coming years. Africa's enormous 
share of the world's mineral reserves and a rapidly growing 
population--which is expected to increase by 20 percent over 
the next two decades--will make the countries of sub-Saharan 
Africa a major market for American businesses.
    Helping African countries, no matter how small and poor, 
realize their full potential and succeed as economically viable 
democracies is in our national interest. If fledgling 
democracies are allowed to fail and undemocratic regimes are 
allowed to endure unchallenged, then people will lose 
confidence in democracy and free market economic principles, 
and we will find ourselves on the defensive in the global 
competition for influence, ideas, and friends.
    Many sub-Saharan African countries face enormous challenges 
to their survival as functioning states, and we must continue 
to help them meet those challenges so that they can better help 
us as we deal with a wide range of global issues such as 
narcotrafficking, piracy, illegal immigration, climate change, 
and the spread of infectious diseases.
    With our limited resources and personnel, we are managing a 
long list of near- and long-term problems that have a direct 
impact on U.S. security, political, economic, and humanitarian 
interests. Over the last year, we have been actively engaged in 
Sudan, Somalia, Cote d'Ivoire, Nigeria, the eastern Congo, 
Uganda, and Guinea-Conakry. Working with our African partners 
and members of the international community, we have made 
progress, but political and security challenges remain ahead in 
all of those countries as well as others in the continent.
    Beyond these fast-moving issues which dominate the 
headlines, our Government is trying to address a number of 
slower moving but nonetheless high-impact challenges. The 
greatest of these is the continued prevalence of HIV/AIDS and 
other infectious diseases which have tragic consequences for 
economic livelihoods and the social welfare of Africans across 
the continent. It is estimated that some 22.5 million Africans 
are living with HIV/AIDS, about two-thirds of the world's 
total. Millions more suffer and die regularly from malaria, 
tuberculosis, and other debilitating but preventable endemic 
diseases. Women and children suffer disproportionately. I 
realize you will discuss this and other health aspects of the 
Fiscal Year 2012 budget request in a separate future hearing, 
but it is important to underscore the problems and challenges 
of public health in sub-Saharan Africa.
    Although a handful of African countries have demonstrated 
improved rates of macroeconomic performance and growth compared 
to previous decades, the overall poverty and social indicators 
for much of the continent are sobering. Ethiopia's per capita 
GPD, for example, is only $344 a year. Life expectancy in 
Nigeria, Africa's most populous country, is only 48 years. 
Basic infrastructure is lacking in many countries struggling to 
keep up with their growing populations. As of last year, 
southern Sudan, which is expected to become independent on July 
9 of this year, had only 50 kilometers of paved road. And food 
security remains an ongoing concern across much of the 
continent.
    I have already alluded to some of the many security 
challenges in Africa. There are others, such as the presence of 
terrorist groups and drug traffickers in the Sahara and the 
ascendence of drug trafficking in such countries as Guinea-
Bissau and Mozambique. Our preferred approach to all of these 
challenges is to work through African security and judicial 
institutions and develop their capacity, rather than rely on 
direct and potentially costly U.S. intervention and 
involvement. This approach may be slow and imperfect, but we 
believe it is the only truly sustainable one for the African 
context, and it is the most cost-effective approach for the 
United States.
    When Africans take ownership of their own security 
responsibilities, we are more likely to have the requisite 
trust and political buy-in of key players than if quick-fix 
solutions are imposed from the outside; and this buy-in is what 
can lead to more durable and sustainable outcomes. To put it 
differently, the more proactive we are in encouraging and 
supporting African-led security initiatives and solutions, the 
less likely we will need to intervene directly ourselves down 
the road.
    Africa's complex challenges demand considerable time, 
attention, and resources, but we must also be attentive to the 
significant gains and progress that have occurred in many 
African countries over the past decade and which are 
continuing. Liberia and Sierra Leone, for example, require our 
engagement and support to help sustain their largely successful 
post-conflict transitions. Helping Africa's most democratic 
countries--such as Senegal, Mali, Ghana, Benin, Botswana, Cape 
Verde, Mauritius, Tanzania, and South Africa--continue with 
their political and economic reforms is vital for demonstrating 
the sincerity of our commitment to democracy and good 
governance, as well as encouraging other countries to follow 
their model.
    In recent years, regional organizations such as the African 
Union and the Economic Community of West Africa and the East 
African Community have demonstrated a growing commitment in 
censuring unconstitutional changes of power, promoting economic 
integration, and addressing regional security problems. It is 
in our interest to see that these organizations continue to 
build capacity and become more assertive across the continent.
    I have worked on Africa for most of my professional career, 
and whenever I review the budget numbers I am still amazed at 
how our Government manages to do so much with so little. 
Roughly speaking, one can easily fit the land masses of the 
United States, China, and Western Europe into sub-Saharan 
Africa. After southern Sudan becomes independent on July 9, 
sub-Saharan Africa will have 49 states.
    We have 44 Embassies, five consulates, and several regional 
platforms used by U.S. Government agencies spread across sub-
Saharan Africa. Those of you who have been out to the region 
know most of these missions are thinly staffed with an 
ambassador and only a handful of reporting officers and 
supporting personnel.
    In closing, I would like to state simply that every dollar 
that we invest in helping Africans to address their problems 
and better capitalize on their opportunities may not satisfy 
our high expectations for rapid and quick economic growth, 
development, health, security, and political stability, but 
they sure can go a long way in preventing situations from 
getting worse and costing us even more money in the future.
    And as my colleagues from USAID and the Millennium 
Challenge Corporation will detail in their testimonies, many of 
our efforts do in fact have a very positive and significant 
impact on improving the lives of Africans. It is through these 
programs and our vigorous diplomacy that the United States will 
remain a critical and key player in Africa and protect and 
advance our long-term interests on the continent.
    Mr. Chairman, Ranking Member, and other distinguished 
members, thank you. I will be happy to address specific 
questions at the conclusion of the others' testimony.
    [The prepared statement of Mr. Carson follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ambassador Carson, thank you very much.
    Ms. Cromer.

    STATEMENT OF MS. SHARON CROMER, SENIOR DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Cromer. Good afternoon, Chairman Smith, Ranking Member 
Payne, distinguished members of the subcommittee. Thank you for 
inviting me to speak today. Mr. Chairman and Mr. Payne, it is 
always an honor for the Agency to have an opportunity to share 
our work with such great supporters of Africa.
    This year, USAID celebrates 50 years of the generosity of 
the American people who believe that we can make the world a 
better place if we use our wealth and expertise to invest 
smartly.
    Where can we make a difference? That question drives 
everything we do. We are becoming more selective in how we 
choose the countries and sectors where we will invest our 
resources. Under USAID Forward, we are moving toward practices 
that are most effective at achieving development results that 
are measurable and real and that create conditions where our 
assistance is no longer needed.
    In all of our areas of work we are seeking to put in place 
more effective, more modern, and more efficient strategies to 
get better results and better outcomes. At the same time, we 
are constantly in search of science and technology innovations 
that will accelerate economic growth and improve health. 
Promising innovations in vaccines, clean energy, and 
information technologies can produce especially dramatic 
results in Africa, where even small-scale or low-cost 
technologies can leapfrog traditional development hurdles and 
yield exponential development gains.
    Today, I will discuss our priorities in Africa, the major 
Presidential initiatives that focus on food security, global 
health, and climate change.
    Over the last decade, dozens of African countries embraced 
democracy; and, today, nine of Africa's 48 states are regarded 
by Freedom House as full democracies. This is a significant 
achievement, and the United States' sustained efforts to 
support democracy through diplomacy and development have played 
a key role.
    The number of conflicts in Africa has also been sharply 
reduced. USAID will continue our work until that number is 
zero, employing a range of conflict mitigation, peace, and 
reconciliation and early warning and prevention mechanisms in 
Africa, especially in the Democratic Republic of Congo, 
Ethiopia, Somalia, and Sudan.
    Africa's economies have made measurable strides, embracing 
reforms and adopting pro-business policies. Prior to the onset 
of the global financial crisis in 2008, Africa enjoyed nearly a 
decade of economic growth, averaging 5.3 percent a year. This 
kind of growth is essential to reducing poverty. USAID 
envisions a world where market-led development replaces foreign 
assistance, so our priority is to foster broad-based growth 
that will accelerate gains and leverage private sector 
investment.
    Feed the Future affirms this commitment to advance 
prosperity by improving the most basic human condition, the 
need for a reliable source of food and the means to purchase 
it. Agricultural growth is highly effective in reducing 
poverty, especially in Africa, where the majority of rural poor 
depend on agriculture for their livelihoods.
    The United States' bipartisan commitment to help is a 
signature of American leadership. Yet this year more than 
350,000 women worldwide will die in pregnancy or childbirth, 
and 8 million children will die of preventable diseases. Half 
of these deaths will occur in Africa.
    Our global work in HIV/AIDS has provided care to 9.4 
million people and prevented a quarter million newborns from 
contracting the disease.
    As part of our women's health programs, we have supported 
25 fistula centers in Africa and funded training, treatment, 
and counseling. The Global Health Initiative will accelerate 
progress toward even more ambitious goals that will improve 
millions of lives.
    Africa is a continent most vulnerable to climate change, 
and we are committed to forging a truly global solution to this 
emerging challenge. The Global Climate Change Initiative is 
helping countries adapt to this challenge while addressing the 
sectors where the effects of climate change will be most 
pronounced--food security, health, and stability.
    For USAID to accomplish its goals, we must get the most out 
of every taxpayer dollar. USAID partners with other donors for 
greater impact, as we did with the British in Nigeria to ensure 
that elections were free and credible. We are proud of our 
efforts with the State Department to support the successful 
referendum on independence in southern Sudan. We are also 
engaging with regional organizations like the African Union to 
support democracy and trade.
    Our efforts reap dividends for both Africa and the United 
States. Disease and conflict know no borders, and undeveloped 
markets limit the potential of global economic growth.
    At the same time, we cannot turn our backs on the great 
need we see in Africa. The American people have demonstrated 
their commitment to responding to the needs of others through 
outpourings of donations to families in Japan and Haiti. 
Assistance is an American value.
    As USAID looks ahead to the next 50 years, we are very much 
looking forward to a continued conversation with our partners 
in Congress on challenges and opportunities in Africa.
    Thank you, Mr. Chairman, Ranking Member Payne, and members 
of the subcommittee. I will be happy to respond to any 
questions.
    [The prepared statement of Ms. Cromer follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Cromer, we thank you very much.
    Now we go to Mr. Fine.

   STATEMENT OF MR. PATRICK FINE, VICE PRESIDENT FOR COMPACT 
 IMPLEMENTATION, DEPARTMENT OF COMPACT OPERATIONS, MILLENNIUM 
                     CHALLENGE CORPORATION

    Mr. Fine. Chairman Smith, Ranking Member Payne, and Ms. 
Bass, I would like to begin by thanking you for the leadership 
that you are providing to advance American interests in Africa. 
Like my colleagues, I have spent much of my adult life living 
in Africa, and I know firsthand that America matters to Africa 
and that Africa matters to us.
    It is great to be with USAID and with the Department of 
State to discuss U.S. assistance to Africa and the unique role 
that the Millennium Challenge Corporation plays in advancing 
American interests by reducing poverty and promoting good 
governance in Africa.
    If there are no objections, I will summarize my remarks and 
submit a full statement for the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Fine. Africa is home to more impoverished nations than 
any other region of the world. Appropriately, most of MCC's 
partner countries are in Africa, where two-thirds of our funds 
are dedicated. Although countries in conflict like Cote 
d'Ivoire grab the headlines, I have witnessed the remarkable 
progress in over 30 years that I have been living in and 
working in Africa, and I have seen the vital role that U.S. 
assistance has played in increasing access to education, 
combating disease, promoting human rights, and strengthening 
market economies.
    President Obama laid out a clear vision for development 
that articulates the strategic, economic, and moral imperatives 
that explain why development assistance is vital to U.S. 
national security. The President's global development policy 
recognizes that protecting our interests and advancing our 
ideals requires economic and diplomatic tools, such as the MCC, 
USAID, and the State Department.
    MCC is a specialized instrument that works with poor but 
well-governed countries. Our programs build capacity, including 
trade capacity, and strengthen relationships with important 
emerging economies.
    As you know, MCC only works with countries selected using 
publicly available third-party indicators that measure the 
extent to which a country is ruling justly, investing in its 
people, and providing economic freedom. Making selectivity a 
core feature of our business model creates an amazingly 
powerful set of incentives for good policy performance. This is 
often called the ``MCC effect,'' and we have seen governments 
undertake reforms to become eligible for MCC assistance. More 
importantly, countries make these reforms before we put any 
money on the table. They make them to retain the assistance 
programs already being implemented and now, as the first 
generation of compacts complete, to become eligible for a 
second compact.
    Within the context of the U.S. Government's overall 
diplomatic relationship with a country and working especially 
closely with the Department of State and USAID, we continually 
work with our partner countries on policies and practices 
needed to ensure the sustainability of our investments. At a 
macro level, this means engaging civil society, respecting the 
rule of law, confronting corruption, and valuing human rights. 
At the investment level, we condition assistance on sector-
level reforms, making it clear that, if commitments are not 
met, we reserve the right to suspend or cancel a compact. In 
fact, we have a record of doing just that.
    Secretary of State Clinton has described development 
resting on a three-legged stool made up of government, the 
private sector, and civil society. Each leg must be strong, and 
they all must be balanced to support the difficult work and 
political will that goes into bringing about the kind of change 
that expands opportunities and reduces poverty.
    The MCC selection process creates direct incentives for 
governments to adopt policies that promote economic growth, and 
our emphasis on country ownership and placing responsibility 
for program implementation on our partner countries strengthens 
the other legs of the stool.
    We actively encourage participation from civil society 
groups in our programs. They must be consulted during compact 
development, and they must be represented on the local 
governing boards our partner countries establish to oversee the 
programs. We also make concerted efforts to promote private-
sector participation. The reason is simple. MCC programs reduce 
constraints to economic growth, but it is the private sector--
whether we are talking about small-scale commercial farmers or 
the truckers who are transporting goods on improved roads or 
large-scale follow-on investments in manufacturing or retail--
that create jobs and income that reduce poverty and put a 
country on the path away from aid dependency.
    In return for scarce U.S. taxpayer dollars, we advance U.S. 
economic and security interests. The emerging economies of sub-
Saharan Africa are the growth markets of the 21st century. 
Between 2000 and 2008, GDP per capita income in sub-Saharan 
Africa grew by 54 percent when adjusted for purchasing power 
parity, which is a lot faster than we thought it was going to 
grow when I was living in Uganda back in the early '90s.
    Our competitors see these opportunities, and they are 
investing heavily. The World Bank expects international capital 
flows to the region to be higher than anywhere else in the 
world. America's development assistance helps unlock the 
potential in these markets, it fosters the personal and 
business relationships that grow into mature trade 
relationships, and it promotes our security interests.
    President Obama has requested $1.125 billion for MCC for 
Fiscal Year 2012. We are currently developing programs with 
Zambia, Cape Verde, and Ghana. By supporting funding for MCC, 
Congress will reaffirm America's commitment to investing in 
countries that are committed to their own development.
    Look at our track record in terms of the results that 
benefit the poor and in terms of the incentives for good policy 
performance that create the business environment to allow 
countries to increasingly finance their own development, and 
you will see this taxpayer money is well spent.
    With that, Chairman Smith, I would like again to state my 
appreciation for your continued support of results-based 
foreign assistance. And we look forward to continuing our 
strong working relationship with you, Congressman Payne, and 
other members of the subcommittee.
    I would be happy to answer any questions that you have.
    [The prepared statement of Mr. Fine follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Fine, thank you very much.
    And for all of our witnesses, any additional comments, 
written testimony that you would want included in the record, 
it will be so ordered.
    Let me just begin with a basic question to help the 
subcommittee gain a better understanding of some of the huge 
shifts in funding at both the country level as well as at the 
functional level.
    I note that some countries will receive overall funding 
increases in excess of 20 percent, including Cameroon, DRC, 
Ghana, Malawi, Mali, Sudan, Swaziland, Tanzania, and Zimbabwe. 
Meanwhile, other countries will have existing developmental 
assistance programs cut by more than half, including Burundi 
and Guinea. And Sierra Leone's development assistance funding 
will be cut by some 27 percent, and Angola's will be cut by 13 
percent. Development assistance programs would be eliminated in 
eight countries: Benin, Cameroon, Chad, Madagascar, Mauritania, 
Mauritius, Niger, and Togo. I mean, these are, the way I look 
at it, rather significant changes in how the money is 
allocated.
    And on the functional level, just very briefly, looking at 
peace and security, counterterrorism is cut by 49 percent, but 
conflict mitigation and reconciliation is enhanced by 60 
percent. You know, perhaps you could speak to, was the 
counterterrorism money not being efficacious or was it better 
utilized somewhere else, how were those decisions made?
    And then, when we look at education, education is cut by 10 
percent, basic education by 3, but higher education by 80 
percent. Water supply and sanitation is cut by 27 percent. This 
is from 2010 to 2012 numbers.
    And, you know, both Mr. Payne and I, since we have been in 
Congress, particularly on the water side, have believed, and I 
think very passionately, that waterborne microbes and disease 
attributable to contaminated water remains one of the leading 
killers of children, through diarrheal disease and other 
diseases. And I am just, you know, wondering out loud and 
asking you a very specific question, how that is justified.
    And on the higher education piece, from $25 million to $5 
million, it seems rather draconian, but perhaps there is--and I 
am sure there is a real method to how you are doing this.
    So if you could speak to those functional accounts and how 
some of the money has been moved away from some countries in a 
total fashion, zero funding, others are getting significant and 
beefed-up allocations.
    Mr. Carson. Well, thank you, Mr. Chairman. Let me, first of 
all, not try to answer your question by going through and 
discussing point by point with respect to each country and each 
account. But we can, in fact, provide you with the rationale 
for what we have done. But let me try to provide a strategic 
overview of what we have done.
    And that strategic overview is to essentially provide 
assistance sufficient to fund the President's key initiatives 
in global health, in Feed the Future, in climate change, and to 
ensure that there was adequate funding for those programs.
    In addition to that, we have tried to provide assistance to 
Africa under the five major strategic categories that I 
outlined earlier: Support for democracy and governance and 
strengthening of democratic institutions in Africa--there have 
been a number of elections that are forecast for Africa going 
forward. We want to make sure that we have resources to be able 
to commit to help in the democratic process.
    Secondly, we have tried to provide assistance sufficient to 
help continue to support economic reform and economic 
development across the continent.
    And, thirdly, we have tried to, as I say, put money into 
health care, which is a major initiative of the President.
    We have also put money into the prevention and mitigation 
of conflict. And we have moved some money that was previously 
provided to countries on a bilateral basis under the security 
accounts into a regional account, which would give us more 
flexibility in using that money to address crises.
    And then, finally, we have effectively focused on the need 
to work with Africa to deal with transnational and global 
challenges.
    But we can give you, if it is insufficient now, a more 
detailed response as to why we did what we did in each of the 
countries that you have outlined, and you have outlined at 
least nine countries where you saw major changes.
    Mr. Smith. I appreciate that. And we will make it a part of 
the record, Mr. Ambassador. And I would agree that, like, in 
the DR Congo, for example, I note that you have increased the 
amount of money to some $86 million. And that is certainly 
needed; if this is going to be a free and fair election, we 
certainly have to do our part, along with other European and 
other African countries that will be assisting. So it isn't a 
matter of trying to find where best to put those moneys.
    And I just want to raise and underscore the concern about 
the water and the importance of clean water, as well as the 
education piece that I mentioned earlier.
    Let me ask you, with regard, any of you who would like to 
respond, on the trafficking issue, I have read the interim 
report that was put out April 5th by the Trafficking in Persons 
Office. And it shows some positive progress among numerous 
African countries, although some have not made any progress at 
all and have actually gone in the wrong direction.
    And I am just wondering if you could speak to how well you 
work and interface with the TIP Office, whether or not you see 
overall progress in combating modern-day slavery, both sex 
slavery as well as labor trafficking. And, in your view, is it 
getting worse, has it ebbed, or is it getting better, in terms 
of our efforts, global efforts as well as indigenous African 
efforts, to stop it? And any country that you might want to 
highlight that might, you know, jump off the page in terms of, 
you know, a job well done that needs to be affirmed and 
reinforced.
    Mr. Carson. Let me say, Mr. Chairman, that the issues of 
trafficking in persons is a major priority of the Department of 
State, it is a major priority of the African Affairs Bureau. We 
work very, very closely with Ambassador Luis CdeBaca, who runs 
the G/TIP office at the State Department, and we work very 
closely with Under Secretary Maria Otero, whose office oversees 
the TIP program.
    We believe that our interventions have, first of all, 
increased the awareness of African governments about the 
problems that they confront in trafficking in persons and that 
the criteria that we have put in place, including the tier 
rating system, has energized many African countries to take 
steps which we believe are important in addressing the 
challenges and problems that African countries face.
    We believe that we have raised awareness. We have 
encouraged governments to pass legislation focusing on 
trafficking in persons, to appoint special representatives, to 
increase the number of investigations, and also to increase the 
number of prosecutions that have taken place.
    South Africa is, in fact, a good example. We believed that, 
last year, as South Africa was preparing to host the soccer 
World Cup, that there would be a dramatic upsurge in 
trafficking in persons and in sex slavery. The South Africans 
indicated a willingness to put in place a law. That law is 
before their national assembly. But they did, in fact, 
undertake a number of activities that were designed to prevent 
trafficking in persons from becoming a problem, including the 
appointment of special law enforcement officers to deal with 
it, the creation of special child protection sites in and 
around soccer locations, and stepping up the prosecution of 
individuals who were responsible for trafficking.
    This is a major concern of ours across the continent, and 
we take it seriously. And we continue to push African 
governments to acknowledge the problem, work against it, pass 
laws to ensure that people can be punished, and then to 
investigate, prosecute, convict, and jail those who were 
responsible. We think progress is being made, not nearly as 
rapidly as we would like, but it is being made.
    Ms. Cromer. Thank you, Mr. Chairman.
    From 2001 to 2009, we programmed about $145 million in 70 
countries to address both sex and labor trafficking. We focused 
our efforts on prevention and protection.
    In Africa, we are working in about four countries--the 
Democratic Republic of Congo, Zimbabwe, Mauritania, and 
Senegal--as the Ambassador said, to raise awareness, to better 
understand the issue, to enact domestic anti-trafficking 
legislation, and to address the needs of the victims. Today, we 
have two countries that are fully compliant Tier I countries--
Nigeria and Mauritius--and 18 African countries that are in 
Tier II, making significant progress.
    Mr. Fine. The U.S. has done more than anybody else to 
combat trafficking. And if you look at G/TIP and the scale, the 
grades, the score card that comes out now, that is a game-
changer in Africa. I mean, people pay attention to it. It 
influences policy.
    MCC works very closely with the State Department and with 
G/TIP. We coordinate with them almost on a daily basis. It is 
something we give a lot of attention to. And the MCC is a very 
valuable asset for the U.S. Government to create incentives for 
good policy performance, and it shows up in trafficking.
    An example is Lesotho. Earlier this year, Lesotho passed an 
anti-trafficking law. And part of what motivated that behavior 
was the whole diplomacy that went around the MCC investment 
there.
    Another example where MCC had a direct impact on government 
actions to do something about trafficking is in Senegal, where 
the government passed a law against child begging to do 
something about the thousands of these young boys, the talibs, 
who were out begging, and that had become a corrupted, abusive 
practice. And they put seven of these corrupt, sort of false 
marabouts in prison.
    Now, passing that law--or, it was a decree--making that 
decree and taking action against corrupt marabouts or imams 
would have been unthinkable 15 years ago. I mean, there was a 
lot of talk about it 10, 12 years ago, but nobody would have 
thought that the government could take that kind of courageous 
action in the face of an established and respected cultural 
practice that had been, over the years, corrupted. And, again, 
that action was, in part, a direct result of influence brought 
to bear by the State Department and MCC acting together, using 
the MCC as an asset to advance that dialogue.
    So there are other countries where I see policy changes, 
where countries pay more attention to it than they would 
otherwise because of MCC. Mozambique is an example. And, 
Chairman, Mali is an example where not as much progress has 
been made as needs to be made but where we certainly have the 
government's attention.
    Mr. Smith. Thank you.
    I would just note, in the interim report, the countries, 
especially Senegal, that you mentioned, as of April--and we 
will get the full report in June--have said that they have made 
significant progress in combating trafficking since the 2010 
TIP report. So the interim report reads mostly in a very, very 
positive way about progress being made.
    And I think leveraging the work that the Millennium 
Challenge Corporation does is just another way of getting good 
people within governments to realize the duty they have to 
combat this horrific scourge of modern-day slavery.
    Let me just also ask--maybe, Ambassador Carson, to you--the 
African Union has complained that it is not being consulted on 
international operations on the continent. And that was 
primarily focused on Libya. Jean Ping made some very, you know, 
strong comments.
    And I am wondering how our Government, particularly our 
Ambassador, interfaces at the AU with regards to these kinds of 
issues. If you could just speak to that.
    Mr. Carson. Yes, let me just say that we have tried to work 
closely with the African Union to enhance its ability to 
participate in peacekeeping and security activities on the 
continent. And the AU is now engaged very significantly in 
Somalia, where it has some 12,000 AMISOM peacekeepers, and are 
working without the support of the United Nations. They are 
also a part of the United Nation's Mission in the Sudan.
    We, too, have noted Chairman Ping's statements about the 
desire of the AU to be consulted more closely on issues related 
to Libya. But we believe that the AU is just as committed as 
the United States and those in the international community to 
bringing about fundamental reforms in Libya that will lead to a 
democratic transition. I think that their methods and means may 
be different, but their objective of seeing a democratic 
transition in which we would see elections and full 
participation by all Libyans is probably exactly the same as 
ours.
    We think that the AU has become a much more positive and 
constructive regional organization over the last decade. They 
are doing more to speak out and uphold the principles of 
democracy and human rights and to encourage economic reform. 
And we want to generally continue to encourage them in that 
direction.
    Mr. Smith. Let me ask three final questions and then yield 
for whatever time they would like to consume to my 
distinguished colleagues.
    First, on AFRICOM, could you perhaps, Ambassador Carson, 
speak to its progress? I, frankly, would love to see it located 
on the African continent. But, short of that, we are hoping 
that, as it looks for a base home, that places like the joint 
base in New Jersey would be adequately looked at. And then, of 
course, that is something that I will pursue at a different 
venue. But let me just--how well is it working? Because, 
obviously, there is a great deal of cooperation among USAID and 
the humanitarian component of our foreign policy.
    And if you could just briefly speak to the transnational 
crime issue. That is straight-lined from 2010 to 2012. Do you 
see a burgeoning problem of drugs, illicit drugs, as I 
mentioned in my opening comments? And is that sufficient to 
combat it?
    And, finally, I do want to note and congratulate you on the 
Feed the Future and the nutrition component. The expectation 
here is that it would go up 186 percent, from $34.5 million to 
$99 million. I was at the Millennium Development kickoff last 
September at a First Ladies of Africa luncheon. And Lady Odinga 
and other first ladies spoke very eloquently about the need for 
the first 1,000 days--and I know the administration is working 
along those lines, as well--that if you care for and provide 
proper nutrition from the moment of conception during those 
first 1,000 days, the next 25,000 days of that child's life, 
then adult's life, will be significantly enhanced.
    And we see the polar opposite of that in places where there 
is severe malnutrition. And nothing could be more stark than 
what happens in North and South Korea, where nutrition has been 
denied and, you know, young people are anywhere from three to 
five inches shorter in North Korea because of that stunted 
consequence of not having adequate nutrition.
    I do believe strongly in the politics and the policies of 
inclusion. So I could commend you for ensuring that the child 
in utero, the child before birth gets that food, that 
nutrition, so that he or she, once born and as they go through 
their lives, have a greater quality of life because of that 
attention that was given to them as they were unborn. So thank 
you for that great initiative.
    But if you could speak to AFRICOM, if you would, Mr. 
Ambassador.
    Mr. Carson. Mr. Chairman, you raise three issues of 
significance.
    First of all, AFRICOM is 3 years old. It has gotten off to 
an excellent start. It continues to work closely with the 
Department of State and other agencies overseas. In most 
instances, it is in a supporting role. The military in Africa 
is an important and critical and valuable institution, but we 
recognize that it can do its best work if it is under civilian, 
democratically elected, and constitutional control.
    Our AFRICOM elements on the continent are helping to 
professionalize Africa's military, making them responsive to 
democratic control and making them the defenders of the nation 
rather than the predators of the nation. We think that AFRICOM 
is doing well.
    I will not speak to the issue of headquarters location. I 
think, when it was established 3 years ago, there was much 
discussion about whether it should be on the continent. I think 
that was an issue that distracted it from doing the kind of job 
that we all want it to do.
    I only note that the United States Government only has one 
of its combatant commands outside of the United States 
territorial geography, and that is the European Command. I 
think AFRICOM is in a good location. I leave it to DOD to 
determine whether it should be a different location.
    With respect to transnational crime, we are very, very 
concerned about transnational crime. If we had been sitting in 
this room 20 years ago, we would not have been talking about 
the movement of narcotics through West Africa into Western 
Europe, we would not have been talking about narcotrafficking 
states. But yet, today, some 50 percent or more of the drugs 
that are landed in Western Europe transits through West Africa.
    Most of this is cocaine coming out of Central America, 
going across the Atlantic, and taking advantage of porous 
borders, weak security institutions, and corruption to get into 
West Africa and then move on to Western Europe and, in some 
cases, even from Western Europe back into the United States.
    One the reasons why we continue to focus on the need for 
strong democratic institutions and good governance is to be 
able to deal with issues related to crime and narcotrafficking. 
It is not just, however, a West African problem; it is also a 
problem in East Africa, as well, in a different kind of way, 
where the airports of Addis Ababa and Nairobi and the port of 
Mombassa are used as transshipment points for heroin coming out 
of Afghanistan and Pakistan. Because of the strong airline 
links and good airport facilities, we see heroin moving through 
those areas. And in southern Africa, we see particularly the 
emergence of a culture of synthetic drug manufacturing, again, 
moving out from there into the Middle East and Western Europe.
    It is important that we work with African states to 
increase their level of awareness about the threat that 
transiting causes, about the threat that illegal money coming 
out of drugs causes, and undermining governments, and the need 
to improve their customs, police, and anti-drug authorities. We 
have worked very hard with African countries on this and will 
continue to do so.
    You also raised a question about Feed the Future. Feed the 
Future is only in its second year, which means that it is still 
very, very much a new program and a new initiative. But the 
administration is determined to do everything that it possibly 
can to help Africa increase its agricultural production.
    Both the President and the Secretary of State have spoken 
eloquently about the need to help Africa create the green 
agricultural revolution that helped to transform agriculture in 
Asia and Latin America in the 1970s and 1980s. That 
agricultural revolution has largely eluded Africa, and because 
of that, Africa remains one of the food-dependent and deficit 
continents in the world.
    And so there is a genuine need to help at the lower end to 
end hunger at the household and village level, and at the upper 
end to help Africa use agriculture as a basis for sustained 
economic development through major agricultural exports and the 
creation of agro-industry, not so much to compete against 
American markets but to go into places like the Middle East and 
South Asia, where there are burgeoning populations, little 
arable and agricultural resources, that, in fact, could benefit 
from larger agricultural exports from Africa.
    Ms. Cromer. Thank you, Mr. Chairman.
    I was just going to add, with regard to Feed the Future, 
that one of the criteria for selecting countries under Feed the 
Future is their own commitment to substantial proportions of 
their own resources going into agriculture and economic and 
social development.
    In Africa, it was truly a country-owned, country-led 
effort, with countries developing the Comprehensive Africa 
Agriculture Development Programme, CAADP, which set forth their 
plans for agricultural development. And so this is not simply a 
U.S. initiative, this is a true partnership. And I think it is 
unique in that sense.
    Mr. Fine. Feed the Future is a USAID initiative, but it is 
one where MCC works very closely with USAID to advance the 
objectives of food-secure nations. In fact, over 40 percent of 
our investments are in the agricultural area. And there are 
great examples of real tight coordination, meaningful 
coordination, and whole-of-government approach between USAID 
and MCC to ensure that investments in agriculture get the full 
synergy of U.S. engagement.
    A good example is in Mali, where MCC is investing in an 
irrigation program and has converted thousands of hectares of 
bush, of unproductive bush land, into now thriving rice fields. 
And it is phenomenal to see the difference and to see hundreds 
of people who had no real livelihood before now become 
successful rice farmers, generating thousands of tons of rice.
    Now, that infrastructure investment and some of the 
training of farmers has been done by MCC. We have an agreement 
with USAID where USAID's program is going to come in and work 
in the same area to do follow-on training with farmers and to 
work to make sure that the agricultural inputs, that the market 
linkages are all in place so that that investment is 
sustainable over a long term. So it is a good example of our 
organizations working together.
    Mr. Smith. Ranking Member Payne?
    Mr. Payne. Thank you very much.
    It is really very interesting to hear your responses to the 
questions.
    And, as you have indicated, I think, Ambassador Carson, 
that it would be very difficult. I had a number of specific 
questions regarding why things are done in one country. First 
of all, we realize that there is a budget crunch; therefore, 
decisions have to be made. However it is--and I certainly will 
not ask you to try to go into the rationale for these. However, 
at some time in the future, could you give us a general view of 
how determinations are made?
    For example, you take Chad and Mauritania, both are 
impoverished countries with a history of authoritarian and 
military intervention in politics. They were also among the 10 
countries participating in the U.S.-led Trans-Sahara 
Counterterrorism Partnership, the TSCTP.
    Now, I just wonder, are you concerned by, one, there is 
proposed cutting to bilateral economic and democracy-promotion 
assistance to these countries, but we are continuing or 
increasing the military assistance, and would the enemies of 
the U.S. make the U.S. seem to be more vulnerable to 
accusations of militarizing foreign aid in the Sahel, for 
example?
    So, you know, there are a number of questions that some of 
the countries, like Niger, you know, there are 13 priority 
countries for the U.S. assistance in Africa as well as 5 
foreign assistance priorities. In some cases, there are 
incongruencies, in my opinion. For example--I am not being 
critical. I know it just, like I said, a very difficult thing 
to try to figure out.
    For example, you state that it is a U.S. foreign assistance 
priority to strengthen democratic institutions and prevent 
armed conflict. However, the State Department, not you, but the 
administrators, propose cutting the Governing Justly and 
Democratically program in Niger and Guinea. And these are in 
the middle of fragile transitions from military to civilian 
rule. Both of them are very, very, as you know, fragile. Niger 
has, as you know, a continued drought in one part of the 
country, water in another part. One part has had no rain for 
maybe a decade. But they are in the middle of this transition 
from military to civilian rule. As well as Sierra Leone, which, 
as you know, the horrible situation they had. They are in the 
post-conflict era.
    So, you know, I just wonder how the administration proposal 
to cut aid in Fiscal Year 2012 to several African countries 
affects those U.S. policy priorities? And what is the expected 
impact of our bilateral relations with affected countries? Do, 
like, proposals in Fiscal Year 2012 aid cuts to transitional 
countries risk jeopardizing the fragile democratic gains?
    So, you know, I could go all over the continent and pick 
out three or four more. But I just wondered, some basic kind of 
rationale, a simple one. You did say that you could deal with 
it later, and I don't want to spend a lot of time on--it 
doesn't seem like nitpicking. I mean, they are countries. But, 
you know, how the determination is made, other than I guess the 
big fact is that there is a scarcity of funds to do really what 
you want to do. And I certainly recognize that.
    Mr. Carson. Mr. Chairman, let me respond by not trying to 
go down in detail as to the rationale of all of these, but it 
is important to say several things.
    One is, we are not trying to militarize our policies in 
Africa. That would be contrary to our desire to strengthen 
democratic institutions and promote democracy and good 
governance.
    In all of the countries that you have mentioned--
Mauritania, Niger, and Chad--over the last 2 years, we have 
worked enormously hard to promote better democratic 
institutions and governance in each one of those.
    Two years ago, I personally was very much engaged with our 
partners in Senegal and in ECOWAS to help Mauritania move back 
away from a coup which had brought in a military leader to a 
government which is now recognized as one which is far better 
and which is oriented democratically. The same thing is true of 
Niger, where we first had a civilian usurpation of power, then 
a military coup d'etat, and then finally, just months ago, an 
election that returned that country to democratic rule.
    We, in both the instance of Mauritania and in the instance 
of Niger, cut substantially our assistance programs because 
these governments had been taken over by military authorities. 
Both of them are now back under the control of civilian 
leaders.
    We want to do as much as we can to continue the political 
and democratic progress that is under way in both of those 
countries, and don't look forward to reducing our assistance, 
but look forward to maintaining it and doing things that we 
previously were doing that had to be cut off. This is 
particularly true of Niger.
    But at the same time that I say this, both of those 
countries border the Sahelian region, where there are issues of 
terrorism and politically inspired kidnapping. And we believe 
that it is important not only to work with these governments to 
strengthen their democracies and improve their economic 
performance, but also to assist them in dealing with the spread 
of al-Qaeda in the Islamic Maghreb, which has, in fact, become 
a problem to states in the region.
    I didn't say anything about Chad. Chad has just had 
elections, as well. And we think that the Chadians have, 
themselves, done some very good things over the last 2 years in 
helping to defuse the tension along the Chadian-Sudan-Darfur 
border. But more needs to be done to help that country improve 
its civilian democratic institutions, as well as to live up to 
some of the economic potential that it has but has not yet 
realized.
    Mr. Payne. Thank you very much.
    I agree with you on Chad. Just the manner in which they 
welcomed Darfurians into an area that was challenged for water 
in the first place, and having the influx of hundreds of 
thousands of people. I went out to some of those camps when 
they first arrived there, and do have to give the Chadians 
credit for accepting them in and trying to help provide for 
them. We know that, like I said, President Deby has a little 
work to do, but I think, overall, in my opinion, that they tend 
in the right direction.
    The question of elections--we have seen this trend in 
Zimbabwe where the strong man loses and then they want to have 
a coalition government. Now, you have always pushed that there 
should be--you know, this shouldn't be winner take all, and 
there should be some recognition for other political parties. 
But I was starting to get a little concerned when I started to 
hear not our administration but others in Cote d'Ivoire talking 
about, well, maybe there needs to be a shared government 
between Ouattara and Gbagbo, which would have certainly sent 
another bad trend. Even Kenya's shared government, to me, is 
not--the President tends, in my opinion, to have much more 
power than the Prime Minister, Odinga. And so I don't think 
that--and I am glad that the Ivoirian situation was resolved 
without the way of this--well, this Rodney King-type thing, you 
know, we can all get along, because the one who is really in 
charge tends to exert most of the power.
    Having said that, we have just seen a Nigerian election, 
which I think was better than the one 4 years ago but left a 
lot to be desired. I think the fact that Gbagbo had to be 
removed--because if that was going to be the trend with the 16 
elections in 2011 and the number of important elections coming 
up in 2012--Liberia, Congo, DRC, Kenya, Senegal, Sudan--I don't 
know about Sudan, but those five--we really need to ensure that 
the whole democracy question moves forward.
    Now, I know that the funds are not available--I think in 
the first election in the DRC, we, I think, had about a $30 
million budget, something like that, I mean, an enormous 
budget. Now I hear we have maybe $2 million or $3 million or $4 
million. So the outcomes are certainly--as you know, the DRC 
had to get South Africa to fly helicopters in to leave ballots 
in places that you couldn't get to. So I kind of wonder how 
these elections will turn out.
    So I just wonder, how can the U.S. best work to ensure that 
the elections held in countries that benefit from less 
international attention go smoothly? Are we working with our 
partners in the EU or other donor and potential donor 
countries, Japanese or the Koreans, or other people to see how 
we can have them perhaps assist in the cost--you know, as we 
all know, democracy is very expensive. You know, you save a lot 
of money when you don't have to have elections, but that is not 
the right thing to do.
    And so, is there any approach to try to encourage other 
countries to have the concern that we have and have had--great 
job being done by the NED all over the world.
    Anyone could try to answer that.
    Mr. Carson. Congressman Payne, thank you very much for your 
question.
    We have focused a great deal on strengthening democracy, 
and I think, over the last 2 years, our track record in support 
of that has been pretty good. Let me give you four quick 
examples and then talk a little bit about the Democratic 
Republic of the Congo.
    Deputy USAID Assistant Administrator for Africa Sharon 
Cromer mentioned Nigeria. And Nigeria is important; it is most 
populous state in the continent. In 2007, it held deeply, 
deeply flawed elections where maybe 10 or 15 percent of the 
population actually cast a vote for the presidency. The 
elections in 2007 represented a continuing decline in electoral 
participation and credibility. In 1999, that country was 
returned to the civilian rule. Those elections were so-so; 
2003, again, a decline; 2007, we are there.
    We were determined to do as much as we possibly could, 
working with the Nigerian Electoral Commission, to ensure that 
the elections that took place in 2011 were a substantial and 
significant improvement over 2007 and 2003 and 1999. Working 
jointly with DFID, the British aid agency, we came up with some 
$35 million. Our assistance helped to fund local observation 
groups, to put in place a parallel vote tabulation system, to 
provide technical assistance of a global nature to the newly 
appointed electoral commissioner, Professor Jega, and to ensure 
that we were able to do things that would help ensure that 
election.
    I went out to Nigeria myself during the first round of 
elections and traveled in three states to see for myself what 
had happened. And I am very pleased that Nigerians responded in 
very large numbers to an opportunity to vote in that country 
for the very first time in many years. It was not without 
technical hitches and problems, and it was not without violence 
after the second round, which was the Presidential round. But I 
can say that it was indeed a substantial and significant and 
clear improvement over what had gone on in 2007.
    We pushed very hard, along with Nigerians in civil society 
and those in government, to help make this happen. Having done 
that, we cannot turn our backs on Nigeria. We have to make sure 
that we continue to work.
    But Nigeria is not the only example. Niger, which has held 
successful elections this year as well, saw a return to 
civilian rule after approximately 15 months of military 
takeover. The former President, Tandja, the last civilian 
President there, overthrew the decision of the Supreme Court, 
overthrew the decision of his legislature, and overthrew the 
decision of many around him when his term had ended and he 
decided to stay on. There was a military coup, and, as a 
result, we were one of the very first to step in, pulling out 
our Peace Corps program, stopping our MCC program, and 
suspending our aid.
    Our Ambassador took a very tough, early line and said this 
would not be acceptable. We also said that we would not, in 
fact, go back in unless there was a civilian government. Again, 
we stepped in, we played a useful role, working with Nigeriens 
who were committed to democracy in that country, working with 
some military officers who were determined, themselves, to move 
back into a civilian situation. And we also, I might add, cut 
off our assistance to the Nigerien military and to their 
participation in the Trans-Saharan Counterterrorism Program. 
They responded. Again, working with ECOWAS as well in this 
process, with General Abubakar, President Abubakar, who had led 
the transition to democracy in 1999 in Nigeria, worked very 
closely with him. Again, we were a part of that successful 
effort, again, working behind African initiatives.
    The same thing can be said in Guinea-Conakry, where, for 50 
years, under several different leaders, that country had not 
had a free and fair election. After the death of President 
Conte, a military junta came to power. But we worked very 
closely with ECOWAS, with President Blaise Compaore from 
Burkina Faso, with the Moroccans, and also with the French to 
ensure that there was a transition in that government, as well. 
I, myself, went out and met the head of the military junta and 
worked with Blaise Compaore, with the French and the Moroccans, 
and with ECOWAS to ensure the kind of transition that occurred 
there, again, driven largely by our concern about a military 
that was carrying out gross violations of human rights.
    And let me say on the Ivory Coast, we have been 
extraordinarily engaged on this issue, as well. From the very, 
very beginning, we have said that we would not accept an 
arrangement in which the victor of the election, now-President 
Alassane Ouattara, would have to share power with the person 
who stole the election--never been our position.
    It is not very well known, but both President Obama and 
Secretary Clinton were both very clear from the very beginning. 
President Obama attempted to talk on two occasions with 
President Gbagbo early on in this crisis, in December and 
January, to encourage him to step aside. The effort was also 
made by Secretary of State Clinton, as well. We offered, among 
others, an opportunity for Gbagbo to leave and to step aside 
and even to come into the United States. We also sought friends 
of Mr. Gbagbo here in the United States to reach out to him. 
And, of course, he did not accept any of those offers.
    But never, never on the table was a compromise in which we 
would subject him to having to do what Morgan Tsvangirai has 
done in Zimbabwe and, I might even add, what Prime Minister 
Raila Odinga has done in Kenya. It was clear that Alassane 
Ouattara won that election, and we stood beside and behind 
ECOWAS and the decision by ECOWAS that Alassane Ouattara had 
won that election, again, working very closely with ECOWAS and 
the leaderships in West Africa on this. But we were very strong 
behind Choi and ECOWAS and the U.N. on this issue of the Ivory 
Coast.
    There are some 16 Presidential contests for Africa slated 
for this year across the continent. Many of them, like Nigeria 
and Niger, have already taken place, but there are other big 
ones coming up over the next 6 months. We expect Cameroon to be 
one; we expect Liberia to be another. But the next really big 
one will be in the Democratic Republic of the Congo.
    We will focus as much political attention on trying to 
ensure that the elections in the Democratic Republic of the 
Congo are a step forward, not a step backward, in democracy, 
and that they, too, will provide not fewer but more Congolese 
to be able to participate in the process, have confidence in 
the elected leaders who come out of it, and can build on this 
set of elections coming this year to make greater progress in 
democracy but also open the door for development.
    We are not stepping back from these. There is a strong 
commitment on our part to do as much as we can. It is important 
that democratic institutions be strengthened across the 
continent. They empower people economically and they empower 
them to unleash their ability to lean forward and to contribute 
to the growth of their societies.
    Mr. Payne. Thank you very much. I think my time has 
expired.
    I won't ask a question for an answer, but in concern about 
Abyei and a solution to Sudan--like I said, we don't have time 
for an answer--but I don't think that we should take the 
pressure off the Government of Khartoum until Abyei and all of 
those issues are resolved, because we can have something like 
we had in India and Pakistan going on for 60 years in the 
future.
    Secondly, hopefully, we can keep an eye on Somalia. As you 
know, I have a lot of investment in Somalia. We have to 
maintain that whole peninsula for a democratic-elected person 
or we are going to have more chaos than we can ever dream of. 
If you think piracy is something now, let the TFG go out of 
power and al-Shabaab take over with the support of al-Qaeda.
    And finally, the issue of--I mentioned Sudan and Somalia. 
Just finally--and I am a pacifist, but I think that there ought 
to be some attention--Kony should not, after 22 years, still be 
able to roam around Africa. I think there ought to be a little 
SEALs project--we might want to get him alive, but that man 
should not be allowed for 20-something-plus years, to 
terrorize, to maim, to kill, to brutalize, and he still goes 
on. To me, he is the number one terrorist in the world.
    So, like I said, I have already abused my time, so I won't 
ask for a question, but I just wanted to get that on the 
record.
    Thank you.
    Mr. Carson. Let me respond very, very quickly, if I could, 
on Sudan.
    We absolutely agree with you, Congressman Payne, that it is 
absolutely critical to resolve the remaining issues of the 
Comprehensive Peace Agreement. Abyei must be resolved. A 
political solution has to be found. If it is not resolved, it 
could become a festering sore that could lead to a new 
conflict. We don't want to see that happen.
    The other issues that must be resolved are related to oil 
and wealth sharing, to citizenship and naturalization, also, to 
borders and the resolution of five border issues, and, finally, 
the issue of debt.
    The clock is ticking very, very rapidly. Southern Sudan is 
slated to receive its independence on July 9. We are working as 
hard as we can under the leadership of Ambassador Princeton 
Lyman, who is the Secretary and the President's Special Envoy 
on Sudan, to resolve these issues. We are working with 
President Thabo Mbeki and the high-level panel, as well as with 
the U.N. and its Special Representative, Haile Menkerios. But 
we believe that it is absolutely critical that we do as much as 
we can to resolve all of these issues before July 9 so that 
they do not become festering problems that could in fact lead 
to new conflicts and disagreements and ongoing tension in the 
future.
    On Somalia, we recognize the enormous problems that Somalia 
has caused. We see Somalia not only as an imploded state which 
has caused enormous problems for the Somali population, but we 
see Somalia as a cancer, in a sense, that has metastasized 
regionally, generating hundreds of thousands of Somali refugees 
traveling across the border into Kenya, across the Red Sea into 
Yemen. The number of Somalis leaving that country probably is 
in excess of 6,000 a month. It is also generating not only 
refugees but illegal trading, illegal arms movements.
    But Somalia has become more than just a regional problem. 
That regional cancer has metastasized into a global one. And we 
see that manifested in multiple ways, but in the way that we 
see it most clearly is in the piracy on the high seas. Piracy 
is not a result of issues that are happening in the waters of 
Somalia, but because there is no government, there is no 
security force, there are no judges and no laws to punish 
pirates, but, more importantly, no economy to prevent or to 
have some other alternative.
    But we see it also in terrorism, and the fact that there 
continue to be in Somalia remnants of the al-Qaeda East Africa 
cell that was responsible for the destruction of the American 
Embassies in Nairobi and Dar Salem in August 1998.
    So Somalia is a domestic problem, a regional problem, and a 
global problem; and we need to continue to work on that. We 
have a dual-track strategy that we are focused on in which we 
are continuing to help AMISOM and help the TFG stand up. But we 
also are working with those local entities in south central 
Somalia that are not affiliated with TFG but are anti-al-
Shabaab. We are looking for opportunities to work with them. 
And we are also stepping up our engagement in working with the 
regional authorities in Puntland and in Hargeisa and 
Somaliland. So we have not taken our eye off the ball in 
Somalia. It is a complex issue, but we are very much focused on 
trying to deal with it.
    With respect to Uganda and Joseph Kony, we know that he has 
been around for a long time and over that period of time has 
caused a great deal of hardship not only in northern Uganda 
from where he comes but also in the northeastern part of the 
Congo, the Central African Republic, and even parts of southern 
Sudan from time to time.
    Under legislation that was passed by the Congress last 
year, we have, in effect, stepped up our own engagement in 
activities and assistance to the Ugandan authorities to help 
them track Kony in the Congo and the Central African Republic. 
In the process, we have tried to help to strengthen not only 
the Ugandans but also the regional capacity in the Congo and 
also in the Central African Republic.
    There are a lot of things--I won't go into them in detail--
that we are doing to assist the Ugandans, and we will continue 
to work as effectively as we can with them and with others in 
the region to strengthen their capacity to go after this man 
and to deal with him. It is an enormous area, it is the size of 
Texas, and when you only have 2- or 3,000 people trying to do 
it, it is a difficult job. I think that over the last 2 years 
we have dispersed his forces and degraded his threat capacity, 
even though he continues to be a problem. We have to support 
the Ugandans as they continue to pursue him.
    Mr. Smith. Ms. Bass.
    Ms. Bass. Thank you.
    I wanted to ask one of the panelists to comment a little 
bit more about the transnational crime in Africa.
    Reference was made to the cocaine trafficking from South 
America to West Africa, and I think you also mentioned 
Afghanistan and heroin traffic. I am assuming, but I don't 
know, that these South American cartels are responsible for the 
cocaine, and I was wondering who is it that is involved in the 
trafficking in Africa of the heroin from Afghanistan.
    Mr. Carson. The traffickers coming out of Central America 
are some of the same traffickers who have tried to penetrate 
the U.S. for many years. As our defenses have become stronger 
and tighter, those networks have moved across the Atlantic into 
West Africa and have begun to penetrate Europe and, as I say, 
in very small quantities even come transatlantic from Europe 
into the United States.
    We can have someone come up and give you a thorough 
briefing on it, but some of these are the same networks. The 
reason why we know this to be a fact is because we have worked 
with a number of African countries who have successfully made 
arrests of narcotraffickers from Central America----
    Ms. Bass. Central or South? Central America?
    Mr. Carson. Central and South. And they have been turned 
over to Federal law enforcement officials, brought back to the 
United States where they have faced prosecution.
    We have gotten excellent cooperation from the Liberians, 
from the Ghanaians, from the Sierra Leoneans; and there have 
been reported published cases of individuals as they have been 
busted for trying to suborn and to illegally influence or 
corrupt officials in West Africa. They have made arrests, and 
they have turned these individuals over to the United States.
    In East Africa, the problem is very different. Again, there 
it is traffickers trying to take advantage of air links and 
networks into probably the two best airline hubs in the East 
African Community that have links with the Asian subcontinent 
and also with Europe.
    And so it is just transiting and trafficking of a different 
sort, mainly through the airports and through the ports; and it 
is in fact again heroin and not cocaine.
    Ms. Bass. In which countries in East Africa?
    Mr. Carson. The two that are used are, of course, the two 
that have the best airlines and the best airports and the best 
connections, and that is Ethiopia and Kenya. Because you have 
daily flights in and out of both of those airports into the 
Middle East, and they have excellent connections into Western 
Europe and on. So they are simply transit points for 
transshipment there. It is on a different level than what is 
happening in West Africa, which, obviously, West Africa is far 
more troubling and concerning.
    Ms. Bass. So the administration has requested an increase 
in funding for transnational crime, and I wanted to know what 
type of programs does the new funding envision?
    Mr. Carson. Yes. The increase is quite substantial. There 
is a 352 percent increase. It jumps from, Fiscal Year 2010, 
funding of $2.2 million to over $10 million in the Fiscal Year 
2012 request.
    Ms. Bass. So I wanted to know what type of programs that 
funds. I see the increase but wanted to know what programs are 
envisioned for that funding and where?
    Mr. Carson. Well, let me say that it is training, it is 
investigation, it is forensics, it is enabling the capacity to 
increase border security, customs investigations, and 
techniques for detection both at airports and at seaports. Some 
of this is also used to create what are called ``vetted'' 
narcotics units, locally staffed and trained but with 
individuals who are highly skilled and who are able to operate 
against international syndicates that operate these rings.
    Ms. Bass. Thank you.
    Mr. Smith. Just one final question, if I could, Mr. 
Ambassador.
    Ethiopia, if I am not mistaken, if I am looking at this 
number right, is slated to get $608 million in the 2012 budget, 
pretty much current levels. And I am wondering, how does 
Ethiopia's 2009 law that empowered the Meles government with 
new authorities over NGOs if those authorities received at 
least 10 percent of their funding from overseas, and that would 
include the Diaspora, how does that affect our funding for NGOs 
that promote human rights and democracy?
    Mr. Carson. This is a piece of legislation--I think it is 
the NGO Act--that we have talked with the Ethiopian Government 
about on a number of occasions. I myself have talked to 
officials at the highest level about this legislation; and we 
have said that we believe, in our own estimation, that it 
constrains the ability of NGOs to carry out the full range of 
activities that they would like to do and that it is a 
constraint. We hope that at some point this legislation will be 
reviewed.
    But the Ethiopian Government does have it on the books, and 
they say that their desire is to create indigenously funded 
organizations and not organizations that are dependent on funds 
from the outside. Our belief is is that there should in fact be 
more latitude and that if organizations can secure outside 
funding for what are responsible civil society organizations 
that are not in contravention of any laws that are undermining 
the state that these things should be considered. But we talk 
about this issue with the Ethiopian Government.
    Mr. Smith. But I think it is clear that constraint is the 
design. That is why the law was enacted in the first place. How 
does that affect those organizations, particularly the human 
rights organizations, civil society organizations that want to 
promote true pluralism and really want to hold the government 
to account? Does that restrain our ability to fund those 
organizations?
    Mr. Carson. It certainly doesn't restrain our ability to 
talk with them, to engage with them, and that is important. 
There is nothing more powerful than an idea whose time has 
come.
    Mr. Smith. Victor Hugo.
    Mr. Carson. But let me just say that those organizations 
continue to operate in Ethiopia. They have not been barred. I 
suspect that many of them would like to have greater outside 
funding and assistance, but they continue to exist; they are 
not prohibited or barred. And, as I say, we have talked to the 
government about it and encouraged that there be more 
liberalization in this area.
    Mr. Smith. Can you assure us that our funding for NGOs that 
promote human rights, that that money is not being diverted to 
those organizations, NGOs that are compliant with the 
government and certainly maybe working in tandem with the 
government? We always know there are front groups that purport 
to be human rights organizations that fall far short of an 
internationally recognized----
    Mr. Carson. Mr. Chairman, I don't think our funding is 
being diverted at all. I think that which is given is in fact 
going to legitimate civil society groups who are doing a range 
of things. These are not just civil society groups promoting 
human rights but civil society groups that are doing other 
things, including microfinance and microcredit, and working in 
various other activities. But I am confident that our funding 
is being appropriately used and not being diverted.
    Mr. Smith. And just the last question, are there any other 
countries in sub-Saharan Africa that have a law similar to the 
NGO law in Ethiopia?
    Mr. Carson. I don't know, but I will find out.
    Mr. Smith. I appreciate that. Thank you.
    The hearing is adjourned. Thank you very much to our 
distinguished witnesses.
    [Whereupon, at 4:27 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  Material submitted for the record by the Honorable Johnnie Carson, 
     Assistant Secretary of State, Bureau of African Affairs, U.S. 
                          Department of State

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
